0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to File and Amicus Curiae
Brief for the International Municipal Lawyers
Association in Support of Petitioner in 20-405, City of
Miami Gardens, Florida v. Wells Fargo & Co., et al.,
was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
29th day of October, 2020:
Robert S. Peck
Center for Constitutional Litigation, PC
2117 Leroy Place, N.W.
Washington, DC 20008
(202) 944-2874
robert.peck@cclfirm.com
Counsel for Petitioner
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

102
I Suite
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

Paul Koster
Counsel of Record
Emory Law School
Supreme Court Advocacy Program
1301 Clifton Road
Atlanta, GA 30322
(404) 727-3957
paul,koster@emory.edu

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 29, 2020.

DonnaJ. Wo
Becker Gallag er Legal ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

%:~4!tf
Notary Public

[seal]

